   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
        FY 2006 AND FY 2005

     National Transportation Safety Board

        Report Number: QC-2007-007
       Date Issued: November 13, 2006
U.S. Department of                          The Inspector General   Office of Inspector General
Transportation                                                      Washington, DC 20590

Office of the Secretary
of Transportation



November 13, 2006

The Honorable Mark V. Rosenker
Chairman
National Transportation Safety Board
490 L’Enfant Plaza SW
Washington, DC 20594

Dear Chairman Rosenker:

The audit of the National Transportation Safety Board’s (NTSB) Financial
Statements, as of and for the years ended September 30, 2006 and September 30,
2005, was completed by Leon Snead & Company, P.C., of Rockville, Maryland
(see enclosure). We performed a quality control review of the audit work to
ensure that it complied with applicable standards. These standards include the
Accountability of Tax Dollars Act of 2002; Generally Accepted Government
Auditing Standards; and Office of Management and Budget Bulletin 06-03, “Audit
Requirements for Federal Financial Statements.”

Snead & Company concluded that the financial statements presented fairly, in all
material respects, the financial position, net cost, changes in net position,
budgetary resources, and financing of the NTSB as of and for the years ended
September 30, 2006 and September 30, 2005, in conformity with accounting
principles generally accepted in the United States. The Snead & Company report
presented two material internal control weaknesses related to implementation of an
agencywide information security program and internal controls over financial
reporting.

Snead & Company made no recommendations regarding the information security
program weakness because the Office of Inspector General already issued
recommendations to address the problems in a recent report (OIG Report
Number FI-2007-001, “Information Security Program,” October 13, 2006).
Snead & Company made two recommendations regarding the financial reporting
weakness; we agree with them and are, therefore, making no additional
recommendations. NTSB concurred with the financial reporting weakness, agreed
Report Number QC-2007-007
                                                                                 2

with the recommendations, and committed to strengthening controls over financial
reporting.

In our opinion, the audit work performed by Snead & Company complied with
applicable standards.

We appreciate the cooperation and assistance of NTSB and Snead & Company
representatives. If we can answer questions or be of any further assistance, please
call me at (202) 366-1496 or Earl C. Hedges, Program Director, at
(410) 962-1729.

Sincerely,




Rebecca C. Leng
Assistant Inspector General for Financial and
 Information Technology Audits

Enclosure




Report Number QC-2007-007
